                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




INSPECTION REPORT
Government Vehicle Utilization at Lawrence
Livermore National Laboratory




 INS-O-15-01                         October 2014
                                  Department of Energy
                                     Washington, DC 20585
                                          October 7, 2014


MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION


FROM:                     Rickey R. Hass
                          Deputy Inspector General
                             for Audits and Inspections

SUBJECT:                  INFORMATION: Inspection Report on "Government Vehicle
                          Utilization at Lawrence Livermore National Laboratory"

BACKGROUND

The Lawrence Livermore National Laboratory (LLNL) is a Department of Energy (Department)
national security laboratory managed by Lawrence Livermore National Security LLC (LLNS),
for the National Nuclear Security Administration. LLNL's mission is to ensure the safety and
security of the Nation through applied science and technology. The Livermore Field Office is
responsible for administering the contract between the Department and LLNS.

To assist in achieving its mission, LLNL maintains a transportation system, which cost
approximately $3.7 million in Fiscal Year 2013. This transportation system included
approximately 770 vehicles, 554 bicycles and 4 taxis on LLNL's one-square mile campus. In
accordance with a Memorandum of Understanding established in 1993 between LLNL and the
General Services Administration (GSA), LLNL leased most of its vehicles from GSA on a cost
reimbursable basis. In January 2011, the Secretary issued a Department Memorandum,
Management of Fleet Inventory, challenging the Department to reduce its fleet inventory by 35
percent without sacrificing critical mission elements but ensuring cost-effectiveness across all
Department sites and field offices. To comply with the memorandum, National Nuclear Security
Administration (NNSA) embarked on a complex-wide effort to right-size its fleet to include a
review of site requirements, budget, and inventory. NNSA did not specifically direct each site to
reduce its vehicle fleets as part of the reduction effort but reported that it was able to reduce its
vehicle fleet inventory on a complex-wide basis.

Given the focus on ensuring that transportation systems were cost effective and efficient, we
initiated this inspection to determine if LLNL's on-site transportation system was being
effectively managed.

RESULTS OF INSPECTION

We found that LLNL had not adequately considered all available options to reduce the cost of its
on-site transportation system. Specifically, we found that LLNL's fleet leveling process did not
consider maximizing the use of other transportation modes when determining the minimum
number of vehicles needed to satisfy programmatic requirements. As such, LLNL may have
missed an opportunity to reduce its fleet of approximately 770 vehicles.

Assessment of Transportation System

While LLNL's vehicles generally met individual, site-established usage standards, LLNL did not
assess the utilization of other transportation modes when determining the optimum size of its
vehicle fleet. Under the Code of Federal Regulations (CFR), 41 CFR §109, Department of
Energy Property Management Regulations, the Department is required to maintain the number
of vehicles at the minimum amount necessary to satisfy programmatic requirements. To attain
this goal, controls and practices shall be established to include, but are not limited to, the
maximum use of motor equipment pools, taxicabs, shuttle buses, or other common service
arrangements.

LLNL conducts an annual fleet leveling process to determine the overall need for the vehicles in
its fleet. In the fleet leveling process, every vehicle is evaluated on an individual basis against
specific utilization criteria to include number of trips per day, mileage per month, or hours
operated per day. Vehicles that do not meet the utilization criteria are reassigned or removed
from service. In February 2013, LLNL's fleet leveling process resulted in the reduction of
approximately 1 percent of its vehicle fleet, leaving approximately 770 vehicles in its inventory.
We found, however, that the LLNL fleet leveling process did not consider the maximum use of
other modes of transportation consistent with 41 CFR §109.

We found that the annual fleet leveling process was compartmentalized in that it only focused on
the individual vehicle utilization criteria and did not consider whether the number of trips per
day and mileage per month could be reduced or eliminated by using other forms of
transportation. In other words, LLNL did not consider whether mass transit modes such as
increasing the use of shuttle buses and/or the taxi service would permit the reduction of
individual vehicles. Furthermore, LLNL did not have adequate controls to encourage individuals
to consider other modes of transportation, such as the taxi service, before using a Government
vehicle. As a result, it was our view that the fleet leveling process did not achieve meaningful
reductions in the number of vehicles in LLNL's fleet, a fleet which remained significant.

During our fieldwork we found that Government vehicles were frequently used to attend on-site
meetings and to run on-site errands within the one-square mile boundary of the Laboratory. A
LLNL official told us that Laboratory employees did not often use the existing taxi service for
these types of trips because it was more time efficient to use a Government vehicle than to wait
for a taxi.

Impact

By not considering the maximum use of other transportation modes during the fleet leveling
process, LLNL likely missed an opportunity to identify cost savings and further reduce its fleet.
In Fiscal Year 2013 alone, LLNL spent approximately $3.7 million for its transportation system,
to include $3.3 million for the cost of vehicles; $268,000 for the cost to operate the taxi services;



                                                  2
and $138,000 for the cost to operate and maintain the bicycles. Maximizing other modes of
transportation could have identified opportunities for LLNL to further reduce its vehicle fleet,
which represented nearly 90 percent of the cost of its total transportation system.

RECOMMENDATIONS

To address the issues identified in this report, we recommend that the Acting Manager,
Livermore Field Office ensure that LLNL:

 1. Determine the minimum number of vehicles necessary to accomplish LLNL's mission, and
    establishes controls and practices consistent with the requirements of 41 CFR §109 that
    include the maximum use of motor equipment pools, taxicabs, shuttle buses or other
    common service arrangements.

 2. Conduct its fleet leveling process in a manner that considers whether the number of vehicle
    trips per day and mileage per month could be reduced or eliminated by maximizing the use
    of other modes of transportation.

ADDITIONAL MATTERS

During the course of our inspection, we also noted that GSA Bulletin Federal Management
Regulation (FMR) B-30, Motor Vehicle Management, stipulates that the Department must
conduct a user utilization survey to consider alternatives to owning or leasing vehicles such as
shuttle bus services, motor pool vehicles, and public transportation. However, as noted in our
audit report on The Department's Fleet Vehicle Sustainability Initiatives at Selected Locations,
(DOE/IG-0896, October 2013), the Department had not conducted the required utilization
survey. In response to our report, the Department and the NNSA concurred with our
recommendation to conduct an agency level utilization survey as required by the GSA Bulletin.
At the time of our fieldwork, NNSA indicated that it was in the process of conducting a review
of the fleet utilization standards development processes at each site.

We also found that LLNL could improve its procedures designed to ensure the proper use of fuel
cards for Government vehicles and equipment. Details regarding the fuel card issue are
discussed in Attachment 1.

SUGGESTED ACTION

To further address the most practical and economical utilization of motor vehicles and the
determination of the minimum number of vehicles necessary to accomplish a site's mission, we
suggest that the NNSA Associate Administrator for Infrastructure and Operations:

   1. Ensure that the provisions of GSA Bulletin FMR B-30 regarding the consideration of
      alternatives to owning or leasing vehicles such as shuttle bus services, motor pool
      vehicles, and public transportation are incorporated into NNSA's on-going review of the
      fleet utilization standards development process at each site.




                                                 3
MANAGEMENT REACTION

Management concurred with each of the report's recommendations and the suggested action.
Management identified planned corrective actions as well as actions that have been initiated and
completed to address the issues identified in our report. Management's formal comments are
included in Attachment 4.

INSPECTOR COMMENTS

Management's planned and completed corrective actions are responsive to the report's findings,
recommendations and the suggested action.

Attachments

cc:    Deputy Secretary
       Under Secretary for Nuclear Security
       Chief of Staff




                                                4
                                                                                    Attachment 1


                OTHER MATTERS: OVER THE TANK TRANSACTIONS

We observed that the Lawrence Livermore National Laboratory (LLNL) did not ensure
procedures were adequate to address over the tank fuel transactions when fueling Government
vehicles. We noted that LLNL operated its own on-site fueling station and purchased fuel for its
vehicles and gasoline operated maintenance equipment (such as lawnmowers). To track fuel
usage, LLNL assigned each vehicle an on-site fuel card, as well as separate fuel cards for
maintenance equipment. Tracked vehicle fuel costs were subsequently reimbursed by the
General Services Administration (GSA). Fuel costs for maintenance equipment and over the
tank fuel transactions were not reimbursed by GSA.

Specifically, GSA identified 127 instances (from October 2011 to February 2013) where fueling
of Government vehicles exceeded the vehicle's tank capacity resulting in GSA billing LLNL
approximately $27,000 for these over the tank transactions. Each leased GSA vehicle at LLNL
has a specific fuel tank capacity documented and tracked by GSA. Through an electronic
system, LLNL sends monthly vehicle fuel transaction data to GSA; GSA then uses this data to
reimburse LLNL for fuel costs. According to a GSA official, over the tank fuel transactions are
not reimbursed because there is no way for GSA to determine the reason or purpose for the
additional fuel expended. For example, if LLNL charged 30 gallons of fuel to a leased vehicle
that only had a 20 gallon tank capacity, GSA would categorize this as an over the tank
transaction and charge LLNL for the entire 30 gallon fuel transaction. If LLNL could prove that
only the over the tank amount was misused, GSA would only charge LLNL for the difference
between the vehicle tank capacity and the gallons procured; however, without this evidence
LLNL was responsible for the entire amount charged. In March 2013, GSA worked with LLNL
to verify and correct the tank capacity data of vehicles that had over the tank transactions.
However, even with the corrections, GSA billed LLNL approximately $27,000 for over the tank
transactions.

This occurred, in part, because LLNL's Fleet Management Policies and Procedures did not
address the proper use of fuel cards. In addition, we noted that there was a lack of understanding
on the part of Laboratory employees with regard to the separation of fuel cards for vehicles and
those for equipment. Employees may have filled up their Government vehicles and equipment
with the same fuel card on the same transaction, potentially contributing to the instances of over
the tank transactions GSA identified. A LLNL official said this may have occurred because
there is one shared equipment fuel card for a group, and if an individual does not have access to
the equipment fuel card at the time, the individual may have fueled the equipment when fueling
the vehicle. The official also said that double fueling may have caused over the tank charges.
This official told us that although drivers are not supposed to do this, double fueling can occur
when two different vehicles are fueled using one vehicle fuel card.

As a result of LLNL's failure to address the proper use of fuel cards, GSA billed back LLNL for
fuel costs that otherwise would have been reimbursed. According to a GSA official, GSA billed
LLNL approximately $27,000 for over the tank transactions that had occurred from October
2011 to February 2013. Implementing effective internal controls and training on the proper use
of fuel cards could have decreased the likelihood of the misuse of fuel cards and mitigated over
the tank fuel charges. Without changes, LLNL will continue to spend more than necessary on
fuel usage due to over the tank charges.


                                                5
                                                                                   Attachment 1



We noted that LLNL expressed concerns regarding over the tank fuel transactions and took steps
to address this issue. Specifically, LLNL recalibrated the on-site fueling pumps to confirm that
the pumps accurately dispensed the appropriate amount of fuel. LLNL also checked its
computer system to ensure that the fuel transaction data was being accurately recorded. In
addition, LLNL assigned an employee, on a limited basis, to monitor the on-site fueling station
to manually record each fueling transaction, observe whether individuals used the proper fuel
card and ensure there was no improper fueling of personal vehicles. While these improvements
are noteworthy, in our view additional controls could help prevent future losses in this area.

SUGGESTED ACTION

To address the issue regarding over the tank transactions, we suggest that the Acting Manager,
Livermore Field Office ensure that LLNL updates its Fleet Management Policies and
Procedures to address the appropriate use of fuel cards for vehicles and equipment, and conducts
the training necessary to ensure Laboratory employees understand the proper use of fuel cards.




                                               6
                                                                                     Attachment 2


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine if Lawrence Livermore National Laboratory's
(LLNL) on-site transportation system was being effectively managed.

SCOPE

The inspection fieldwork was conducted at LLNL in Livermore, California from February 2013
to October 2014. The focus of the inspection was LLNL's on-site transportation system which
included Government vehicles, bicycles and taxi service. The inspection was conducted under
Office of Inspector General Project Number S13IS006.

METHODOLOGY

To accomplish the inspection objectives we:

   •   Interviewed key individuals that provided information about LLNL's fleet and on-site
       transportation;

   •   Obtained and reviewed LLNL internal documents, policies and procedures; and

   •   Reviewed applicable Federal regulations.

We conducted this inspection in accordance with the Council of the Inspectors General on
Integrity and Efficiency, Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our objective. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our inspection objective. The review included tests of controls and compliance with laws and
regulations to the extent necessary to satisfy the objective. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our inspection. Also, we assessed LLNL's compliance with the Government
Performance and Results Modernization Act of 2010 and determined that LLNL had established
performance measures. Finally, we relied on computer processed data to some extent to satisfy
our inspection objective. We confirmed the validity of such data, as appropriate, by conducting
interviews and reviewing source documents.

National Nuclear Security Administration management waived the exit conference.




                                                 7
                                                                                       Attachment 3


                                        PRIOR REPORTS

•   Audit Report on The Department's Fleet Vehicle Sustainability Initiatives at Selected
    Locations, (DOE/IG-0896, October 2013). The report concluded that while Los Alamos
    National Laboratory and the Bonneville Power Administration had taken steps designed to
    improve economy and reduce emissions, they had not always managed their substantial
    vehicle fleets in a cost-effective or efficient manner, nor did they take all prudent steps to
    advance the use of alternative fuels and did not optimize the size of their fleets.

•   Audit Report on Richland Operations Office Fleet Management, (WR-B-01-01, January
    2001). The report concluded that Richland Operations Office vehicle fleet was not
    appropriate to its use, as 85 percent of the vehicles were used less than the Department of
    Energy's mileage standards. Also, Richland Operations Office had too many vehicles
    because it had not established and implemented controls required by the Department of
    Energy's Property Management Regulation.

•   Audit Report on Vehicle Use at Lawrence Livermore National Laboratory, (WR-B-00-07,
    September 2000). The report concluded that Lawrence Livermore National Laboratory's
    allotment of 516 on-site vehicles was too large and that randomly selected on-site
    discretionary vehicles did not meet the Laboratory's use standard. Also, Lawrence
    Livermore National Laboratory could reduce its vehicle lease costs by at least $690,000 per
    year by returning vehicles that did not meet the local use standards.




                                                  8
                      Attachment 4


MANAGEMENT COMMENTS




         9
     Attachment 4




10
     Attachment 4




11
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
